0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-843
NEW YORK STATE RIFLE & PISTOL
ASSOCIATION, INC ., ET AL.,

Petitioners,
V.

KEVIN P. BRUEN, IN HIS OFFICIAL CAPACITY AS
ACTING SUPERINTENDENT OF NEW YORK STATE
POLICE, ET AL.,

Respondents.
As required by Supreme Court Rule 33. l(h), I
certify that the Brief of Giffords Law Center to Prevent
Gun Violence as Amicus Curiae in Support of
Respondents contains 7,488 words, excluding the parts
of the Brief that are exempted by Supreme Court Rule
33.l(d).
I declare under penalty of perJury that the
foregoing is true and correct.
Executed on September 21, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati , Ohio 45249

Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
f'ebrua;y 14, 2C~3

